WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. __20-465

Young County, Texas, et.al y. Nichole Sanchez, et. al.

(Petitioner) (Respondent)
I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate boxes:
x Please enter my appearance as Counsel of Record for all respondents.

QO There are multiple respondents, and I do not represent all respondents. Please enter my appearance
as Counsel of Record for the following respondent(s):

 

 

X I am a member of the Bar of the Supreme Court of the United States.

Q_ 1am not presently a member of the Bar of this Court. Should a response be requested, the response will
be filed by a Bar member.

‘
Signature C
Date: [L155 |a0ao _

(Type or print) Name _Christine Lynne Stetson
QMr. X Ms. OU Mrs. O Miss

 

 

Firm The Bernsen Law Firm =
Address_420 North MLK, Jr. Parkway a

City & State Beaumont, Texas Zip 77701

Phone 409-212-9994 _ Email cstetson@Bernsenlaw.com

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF
THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Cass Weiland, Robert Hawkins, Joseph F. Cleveland, and Kevin Smith
